    MEMORANDUM


                                                                     May 31, 2005
     To:      Giovanni Prezioso
              Lori Richards
              Linda Thomsen                       Q _o
     From:    WalterStachnik      £t} ·~~
     Re:      Field Offices' Integrity Program

     Attached is our evaluation report on the Targeting Field Offices' Integrity
     Program (Evaluation Report 395). Comments on the draft report we received
     have been incorporated, as appropriate.
     We would appreciate receiving any additional comments you have concerning
     this evaluation and the report. In particular, we would like to know whether
.    you found the evaluation useful. We also welcome any suggestions from you
     concerning how we could improve future evaluations.
     The courtesy and cooperation of you and your staff during this audit are
     appreciated.                     ·


     Attachment

     cc:     Michelle Barrans
             James Clarkson
             William Lenox
             Joan McKown
             Darlene Pryor
             John Walsh
           FIELD OFFICES'
        INTEGRITY PROGRAM

                   EXECUTIVE SUMMARY
The Office of Inspector General (Office) evaluated the Commission's integrity
programs (i.e., ethics and staff conduct) in four of five regional offices and four of six
district offices. Successes, obstacles, recommendations, and effectiveness ratings
related to the Commission's integrity objectives were obtained through twelve
workshops involving approximately 150 Commission employees. The opinions and
observations of the staff were not validated through tests or compared to other data.
Composite ratings by the participating professional staff indicate that all supporting
objectives are generally being implemented, although some obstacles are impairing
full implementation. We believe that, taken as a whole, the Commission field offices
are achieving the Commission's primary objective to promote high individual and
agency integrity.
As in prior evaluations, the participants indicated that they felt a personal sense of
responsibility for maintaining the integrity of the Commission. Most of the
participants also indicated that they felt a strong sense of an ethical tradition at the
Commission and that employees live up to the Commission's integrity expectations.
Workshop participants overwhelmingly reported that integrity is a high priority at,
and an integral \value of, the Commission.
 The participants in the workshops expressed a desire for better communication of
policies from management, more frequent ethics training, and responsive and well-
trained ethics advisors. We are recommending that the Office of Human Resources,
in conjunction with the Offices of the Chairman and Executive Director, impleme~t
its plans for an employee manual to effectively communicate management policies to
Commission staff. We also recommend that the Office of Compliance Inspections and
Examinations implement its plans to establish and train ethics liaisons from the
Inspection Program in each field office, and to hold an ethics video-conference
annually with all the field offices.


                SCOPE AND OBJECTIVES
The primary objective of the evaluation was to determine the extent to which the
Commission is achieving its integrity objectives in its field offices (i.e., regional and
district offices). The evaluation also provided staff with a better understanding of
integrity objectives and recommended actions to increase the likelihood that the
Commission's integrity objectives would be achieved.
                                                                                      2
                                         .
Staff opinions and observations were not validated through tests or compared to
other data. Although the focus of the workshops was on ethics and staff conduct, the
participants brought up issues that were essentially unrelated to that focus (e.g.,
management issues, communications, targeting). All the detailed participant
comments issues were anonymously presented to management.
The evaluation field work was performed in June, July, and August 2004.


                                BACKGROUND
Commission management determined the integrity objectives. The primary
objective of the integrity programs (i.e., ethics and staff conduct) is to:

  Promote High Individual and Agency Integrity
Seven supporting objectives, reflecting the activities that make achievement of the
primary objective more likely, were also developed by management. They are:
        CONDUCT OF MANAGERS - Ensure that the behavior of executives and
        managers reflects the SEC's integrity values and principles and that they
        acknowledge their critical role in reinforcing these values with their
        subordinates.
        ORGANIZATIONAL CLIMATE- Foster an organizational climate that
        promotes high standards of ethical behavior.
        SENSITIVITY TO UNINTENDED CONSEQUENCES - Promote staff objectivity
        in their official interactions with the private sector to prevent unfair impact
        on persons outside the Commission.
        LINK INTEGRITY TO PERSONNEL DECISIONS - Ensure that managers
        consider employees' ethical behavior when deciding on their performance
        ratings, awards, promotions, selection to supervisory positions, or other
        personnel actions to reward behavior that furthers SEC integrity.
        FAIR NOTICE OF CONDUCT PARAMETERS- Provide staff with fair notice of
        the parameters of acceptable and prohibited behaviors, along with
        information on the consequences of non-compliance.
        STAFF COUNSELING- Provide employees with an opportunity to obtain
        authoritative answers to ethics and integrity questions in order to enable
        them to make ethical decisions.
        INTEGRITY TRAINING - Promote staff awareness and commitment to
        integrity.


                              METHODOLOGY
A version of a private sector, internal audit methodology (Control Self-Assessment or
CSA) was adapted for this purpose. The Institute of Internal Auditors has promoted
the concept internationally for the last several years with outstanding results
reported.

Field Offices' Integrity Program (Evaluation Report 395)                     May 31,2005
                                                                                   3




We convened twelve workshops of 10 to 15 participants, who were professional, non-
management staff at the respective field office. Using prepared questions, the
participants discussed each of the seven supporting objectives in a "focus group"
setting. Mter each discussion, workshop participants anonymously rated how well
the Commission achieved the supporting objective. Mter all seven supporting
objectives were discussed and rated, the participants rated how well the Commission
achieved its primary integrity objective.
Primary data collection was accomplished through the twelve workshops
(approximately 150 professional, non-management staff participated in the
workshops) in which the supporting objectives were discussed and anonymously
rated. No document reviews or other tests were performed. The methodology
provided perceptions and judgments about the success of the integrity program
objectives Commission-wide, but will not support conclusions regarding any
particular sub-unit of the Commission.
The detailed comments and recommendations of the participants and preliminary
conclusions of the Office of Inspector General were shared with management.
Through discussions with management, several agreed upon actions were developed.
These actions address the most important issues raised in the workshops.


                     EVALUATION RESULTS
OVERALL RESULTS
The seven supporting objectives (see above) were anonymously rated by the
participants. They used a rating scale that ranged from 7 (full implementation) to 1
(not being implemented in a meaningful manner). The composite ratings for how
well the Commission actually achieved its seven supporting objectives were as
follows:
        CONDUCT OF MANAGERS • 5.0
        ORGANIZATIONAL CLIMATE • 5.2
        SENSITIVITY TO UNINTENDED CONSEQUENCES • 5.3
        LINK INTEGRITY TO PERSONNEL DECISIONS • 4.6
        FAIR NOTICE OF CONDUCT • 4.1
        STAFF COUNSELING • 5.0
        INTEGRITY TRAINING • 4.0




Field Offices' Integrity Program (Evaluation Report 395)                 May31, 2005
                                                                                       4

The ratings obtained in this evaluation were generally in line with the composite
ratings from prior audits, as follows:


                                                 Audit   Audit · Audit    Evaluation
                                                No. 250 No. 267 No. 313    No. 395
 Conduct of Managers                               5.1     5.1    5.0        5.0
 Organizational Climate                            5.1     5.3    5.4        5.2
 Sensitivity to Unintended                         5.1     5.2    5.2        5.3
 Consequences
 Link Integrity to Personnel                       4.3     4.7    4.9        4.6
 Decisions
 Fair Notice of Conduct Parameters                 4.8     4.0    4.9        4.1
 Staff Counseling                                  5.7     5.6    5.5        5.0
 Integrity Training                                4.5     4.3    4.8        4.0

The composite ratings by the participating staff indicate that all supporting
objectives are generally being implemented, although some obstacles are impairing
full implementation. We believe that, taken as a whole, the Commission's field
offices are achieving the primary objective to promote high individual and agency
integrity.
An important theme, expressed overwhelmingly by the participants, is the personal
commitment of Commission employees to maintain the Commission's high standards
of integrity. Most of the participants also indicated that they felt a strong sense of
an ethical tradition at the Commission and that the staff live up to the Commission's
integrity expectations. These factors are crucial to an effective integrity program
and their existence indicates that management's objectives are being achieved.
However, the participants in the workshops also expressed a desire for:
    •   Better communication of policies and standards of conduct from management,
    •   More frequent ethics training, and
    •   Selective, responsive, and well-trained ethics advisors.

BETTER COMMUNICATION OF POLICIES AND STANDARDS
A large number of participants expressed the need for enhanced transmission of
Commission integrity, and other, policies and standards. The lack of an employee
manual was brought up at many of the workshops.
We discussed, in detail, the need for an employee manual with management. We
were informed that such a manual, addressing most of the issues raised in the
workshops, was in development awaiting comments and various approvals.




Field Offices• Integrity Program (Evaluation Report 395)                      May31, 2005
                                                                                                          5

        Recommendation A
        We recommend that the Office of Human Resources, in conjunction with the
        Offices of Executive Director and the Chairman, implement their plans for an
        employee manual.

MORE FREQUENT ETHICS TRAINING
For many participants, the ethics component of the Enforcement training for new
attorneys (traditionally held in September) or the OCIE examiner training was the
only ethics or conduct training they received. Several participants said new staff
members often do not know what ethics material or personnel information is
available. Because of the timing of the Enforcement and OCIE training, receiving
new employee ethics training was dependent on when the employee was hired.
Employees could wait six months to a year before receiving training. 1
Among the participants who had received training, some said the training was
rudimentary (i.e., one hour just before the end of the week-long Enforcement staff
training). Some participants said staff did not receive on-going training or
reminders like they had in previous jobs in the private sector. Participants said
staff commonly feel they are on their own regarding ethics matters. The
Commission's ethics programs were not perceived as proactive.
The Office of Ethics Counsel (OEC) pointed out that field office staff receive video
training on their first day of employment that provides a detailed outline of ethics
rules and how and when to ask questions. A revised orientation video is in
development. OEC also conducted a significant ethics training effort at all field
offices just after the workshops had been completed. OEC believes that the
workshop results would have been significantly different (and better) had they been
conducted a few months later (after the completion of the field office training effort).
The OEC also indicated that they had traditionally participated in the new attorney
training program conducted by Enforcement, but had not been asked to do so in the
past several years. They hoped that Enforcement would invite them to participate
in future programs.
Enforcement noted that most field office staff who are grade 14 or higher receive
annual ethics training from OEC. Enforcement is planning to conduct annual ethics
training for the remaining staff through either live broadcasts or video tape. They
are working with OEC on this training program.
The Office of Inspections and Examinations (OCIE) has agreed to annually hold an
ethics refresher video-conference for inspections staff in OCIE and the regional and
district offices. Currently, these video-conferences are held every few years. This
will facilitate participation by all staff (including new hires). The Office of Ethics
Counsel within the Office of General Counsel has agreed to participate in these
annual video-conferences.




1
 The evaluation workshops were completed within weeks of the start of an OCIE ethics training effort in
which all regional Inspection Program examiners received ethics training.

Field Offices' Integrity Program (Evaluation Report 395)                                    May 31,2005
                                                                                     6

        Recommendation B
        We recommend that the Office of Inspections and Examinations implement
        their plans for annual ethics video-conferences.

SELECTIVE, RESPONSIVE, AND
WELL·TRAINED ETHICS ADVISORS
Many participants said they had sought advice from their ethics liaisons and were
comfortable asking questions. Those who received advice were generally satisfied
with the response. Most participants did not believe any privileges or immunities
attached to discussions with ethics counsel, however confidentiality was generally
expected.
A common problem cited by participants was the lack of training for ethics liaisons.
Also, in some regional offices, as many as half the participants did not know who the
ethics liaison was. A few participants (in a couple of field offices) were
uncomfortable speaking with the ethics liaison because they believed the ethics
liaison was abrasive or might disclose confidential communications to management.
In some instances, participants were more comfortable calling the Office of Ethics
Counsel in headquarters regarding questions about issues such as seeking
employment.
Several participants were also concerned that the ethics liaisons inevitably were
attorneys from the Enforcement Program and were unfamiliar with the Inspection
Program or OCIE policies. In addition to the ethics liaison, participants commonly
cited their branch chief or Assistant Regional Director, OEC, the ethics website,
union stewards, and colleagues as additional sources of ethics advice.
The Office of Inspections and Examinations proposed several steps to mitigate these
concerns. It plans to take the lead with OEC and the field offices to ensure that each
office has at least one ethics liaison from the Inspection Program. This would make
someone readily available for consulting who is familiar with the Inspection
Program and examiners' unique circumstances.
OCIE also proposed to ensure adequate training for these new ethics liaisons. They
plan: to hold a full day workshop, in conjunction with OEC, to review ethics
resources available, issues raised by workshop participants, guidelines for referring
matters to OCIE or OEC, and any local, field office specific issues. They also plan to
build an electronic space (at first a shared email directory) for the Inspection
Program ethics liaisons in the field offices to facilitate communications among the
new Inspection Program liaisons.

        Recommendation C
        The Office of Inspections and Examinations, in conjunction with OEC and the
        Division of Enforcement, should implement its plans to establish an ethics
        liaison from the Inspection Program in each field office.




Field Offices' Integrity Program (Evaluation Report 395)                   May31, 2005
                                                                                  7

        Recommendation D
        The Office of Inspections and Examinations, in conjunction with OEC, should
        implement their plans to train and support the new ethics liaison from the
        Inspection Program.




Field Offices• Integrity Program (Evaluation Report 395)                 May31, 2005
